<html>
<title> - NOMINATIONS OF LOURDES MARIA CASTRO RAMIREZ, OF CALIFORNIA, TO BE ASSISTANT SECRETARY FOR PUBLIC AND INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT; AND THERESE W. McMILLAN, OF CALIFORNIA, TO BE FEDERAL TRANSIT ADMINISTRATOR, DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 113-485]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-485


  NOMINATIONS OF: LOURDES MARIA CASTRO RAMIREZ AND THERESE W. McMILLAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                            NOMINATIONS OF:

Lourdes Maria Castro Ramirez, of California, to be Assistant Secretary 
    for Public and Indian Housing, Department of Housing and Urban 
                              Development

                               __________

       Therese W. McMillan, of California, to be Federal Transit 
              Administrator, Department Of Transportation

                               __________

                           NOVEMBER 13, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Available at: http: //www.fdsys.gov /
                 
                                ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-486 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                 
                 
                 


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                  Laura Swanson, Deputy Staff Director

              Brian Filipowich, Professional Staff Member

                 Beth Cooper, Professional Staff Member

               Homer Carlisle, Professional Staff Member

                  Greg Dean, Republican Chief Counsel

            Chad Davis, Republican Professional Staff Member

          Rachel Johnson, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Troy Cornell, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


















                            C O N T E N T S

                              ----------                              

                      THURSDAY, NOVEMBER 13, 2014

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Crapo
        Prepared statement.......................................    13
    Senator Menendez
        Prepared statement.......................................    13

                                NOMINEES

Lourdes Maria Castro Ramirez, of California, to be Assistant 
  Secretary for Public and Indian Housing, Department of Housing 
  and Urban
  Development....................................................     2
    Prepared statement...........................................    14
    Biographical sketch of nominee...............................    16
    Responses to written questions of:
        Senator Crapo............................................    30
        Senator Menendez.........................................    31
        Senator Tester...........................................    34
        Senator Vitter...........................................    37
        Senator Toomey...........................................    38
Therese W. McMillan, of California, to be Federal Transit 
  Administrator, Department of Transportation....................     4
    Prepared statement...........................................    23
    Biographical sketch of nominee...............................    24
    Responses to written questions of:
        Senator Crapo............................................    40
        Senator Menendez.........................................    41
        Senator Tester...........................................    42
        Senator Warren...........................................    44
        Senator Heitkamp.........................................    45

              Additional Material Supplied for the Record

Letter submitted by the National Association of Housing and 
  Redevelopment Officials........................................    47
Letter submitted by the Public Housing Authorities Directors 
  Association....................................................    49
Letter submitted by the National Hispanic Leadership Agenda......    51
Letter submitted by the National Alliance of Community Economic 
  Development Associations.......................................    52
Letter submitted by the San Francisco Bay Area Water Emergency 
  Transportation Authority.......................................    53
Letter submitted by Inland Action................................    54
Letter submitted by the Riverside County Transportation 
  Commission.....................................................    55
Letter submitted by Malcolm Dougherty, Director, California 
  Department of Transportation...................................    56
Letter submitted by the California Alliance for Jobs.............    57
Letter submitted by the Southern California Regional Rail 
  Authority (Metrolink)..........................................    58
Letter submitted by the Central Coast Coalition..................    59

                                 (iii)

 
   NOMINATIONS OF LOURDES MARIA CASTRO RAMIREZ, OF CALIFORNIA, TO BE 
   ASSISTANT SECRETARY FOR PUBLIC AND INDIAN HOUSING, DEPARTMENT OF 
HOUSING AND URBAN DEVELOPMENT; AND THERESE W. McMILLAN, OF CALIFORNIA, 
   TO BE FEDERAL TRANSIT ADMINISTRATOR, DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      THURSDAY, NOVEMBER 13, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 11:03 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. I call this hearing to order. Today we 
will consider the nominations of Ms. Lourdes Castro Ramirez, to 
be an Assistant Secretary of Housing and Urban Development; and 
Ms. Therese McMillan, to be the Federal Transit Administrator 
at the U.S. Department of Transportation.
    If confirmed, Ms. Castro Ramirez will lead HUD's office of 
Public and Indian Housing, which helps more than 3 million 
families find affordable housing in cities, suburbs, rural 
areas, and in Indian country. Given the growing number of 
families struggling to find affordable rents, effective use of 
the resources administered by PIH is critical.
    By way of introduction, Ms. Castro Ramirez would bring 20 
years of experience leading and managing affordable housing and 
community development programs at the local level to this 
position. She is currently the president and CEO of the San 
Antonio Housing Authority, where she oversees housing programs 
serving 26,000 families, a workforce of 525 employees, and an 
annual operating budget of $186 million. Prior to joining SAHA, 
Ms. Castro Ramirez was the director of the Housing Choice 
Voucher Program at the Housing Authority of the city of Los 
Angeles.
    And to introduce Ms. McMillan, she has served as Deputy 
Administrator at FTA since 2009, and she became Acting 
Administrator in July of this year. Ms. McMillan brings 
substantial experience to her new role. As Deputy 
Administrator, she has guided FTA staff throughout the agency's 
headquarters and 10 regional offices, and she has played a key 
role in the implementation of MAP-21's reforms such as the new, 
streamlined process for the New Starts and Small Starts 
program. Prior to joining FTA, she was a deputy executive 
director at the Metropolitan Transportation Commission in the 
San Francisco region where she was responsible for strategic 
financial planning and MTC's management of Federal, State, and 
regional funding for transit, highways, and other 
transportation modes.
    Any Senator wishing to submit a question for the record for 
today's nominees should do so by the close of business 
tomorrow, November 14. I would also urge the witnesses to reply 
to questions as soon as possible in order to aid the 
Committee's consideration of their nomination.
    We will now swear in the nominees. Please rise and raise 
your right hand. Do you swear or affirm that the testimony that 
you are about to give is the truth, the whole truth, and 
nothing but the truth, so help you God?
    Ms. Castro Ramirez. I do.
    Ms. McMillan. I do.
    Chairman Johnson. Do you agree to appear and testify before 
any duly constituted Committee of the Senate?
    Ms. Castro Ramirez. I do.
    Ms. McMillan. I do.
    Chairman Johnson. Please be seated.
    Each of your written statements will be made part of the 
record. Before you begin your statement, I invite each of you 
to introduce your family and friends in attendance.
    Ms. Castro Ramirez, please proceed.
    Ms. Castro Ramirez. Good morning, Mr. Chairman. Thank you 
very much. I would like to introduce my husband, Jorge Ramirez, 
who is with us today; my daughter, Natalia. Also, my parents 
were able to join me today: my father, Toribio Castro, in the 
audience; and also my mother, Guadalupe Castro.
    Also, my sister, Dr. Alma Castro, has joined us, and I 
would also like to acknowledge my son, who is hopefully 
watching this in college. He is in college, a first-year 
student, so hopefully he is watching this in his dorm.
    And, last, I would like to acknowledge my son, Nicolas, 
whose spirit is always with us.
    Thank you.
    Chairman Johnson. Ms. Castro Ramirez, please proceed.

STATEMENT OF LOURDES MARIA CASTRO RAMIREZ, OF CALIFORNIA, TO BE 
 ASSISTANT SECRETARY FOR PUBLIC AND INDIAN HOUSING, DEPARTMENT 
                OF HOUSING AND URBAN DEVELOPMENT

    Ms. Castro Ramirez. Thank you very much, Mr. Chairman.
    Good morning, Mr. Chairman and distinguished Committee 
Members. I am deeply honored and grateful to President Obama 
and Secretary Castro for their confidence in me and for this 
opportunity to be before you. Thank you for considering my 
nomination to serve as Assistant Secretary for Public and 
Indian Housing at the Department of Housing and Urban 
Development.
    I would like to also express my appreciation to you, Mr. 
Chairman, to Ranking Member Crapo, to your colleagues, and 
staff for meeting with me prior to this confirmation hearing. 
It was extremely helpful, and I gained a deeper understanding 
of the Committee's priorities.
    My qualifications for this appointment were shaped by my 
parents' struggles and informed by my community engagement and 
professional experience, including nearly 20 years managing and 
leading affordable housing and economic development programs.
    I was born in a small rural town in Jalisco, Mexico. When I 
was 4, my family moved to California where my parents sought 
work, stable housing, and a better future for my siblings and 
me.
    Growing up in the city of Lynwood, my parents instilled in 
us responsibility, service to others, education, and a strong 
work ethic.
    In 1996, I began my career as a community planner in 
Ventura County, California, where I promoted resident 
leadership in rural and urban neighborhoods through community 
building and advocacy.
    Soon I was recruited to join the Housing Authority of the 
city of Los Angeles, where I worked with residents, staff, and 
local leaders to increase affordable housing opportunities.
    In Los Angeles, I led Jobs-Plus, an evidence-based program 
that substantially increased the earnings of public housing 
residents in two of L.A.'s most distressed communities.
    Later, as the director of LA's Housing Choice Voucher 
Department, my team and I transformed the Section 8 program 
from ``Troubled'' to ``High Performer'' in just 3 years, 
renewing confidence in our stewardship of taxpayer dollars.
    For the past 5 years, I have served as the president and 
CEO of the San Antonio Housing Authority where I have fostered 
a culture of collaboration and accountability, providing safe 
and affordable housing to nearly 65,000 children, adults, and 
seniors. In San Antonio, we established partnerships to promote 
self-sufficiency, expand affordable housing, and launch a 
placed-based initiative. During my tenure, we utilized the 
Moving-to-Work program to foster innovation and advance local 
priorities. Today more than 1,900 clients are engaged in self-
sufficiency programs, and 40 percent of them are currently 
employed.
    We also increased the affordable housing supply by securing 
$187 million in Federal, State, local, and private sector 
funds. These investments built almost 1,500 new affordable and 
mixed-income rental housing units.
    In San Antonio, we are creating a neighborhood of 
opportunity. The housing authority competed for and won $30 
million in HUD Choice Neighborhoods Planning and Implementation 
grants to invest in the city's east side. This effort was 
enhanced with a Byrne Criminal Justice grant, a Promise 
Neighborhoods grant, and a Promise Zone designation, making it 
the only city with all four White House Neighborhood 
Revitalization Initiatives in the same footprint. These 
integrated efforts have leveraged public and private funds, 
triggering wide-scale recovery in the area.
    If confirmed, I will remain dedicated to preserving and 
expanding the housing needs of poor and working families, 
elderly and disabled individuals, homeless veterans, and other 
special needs populations. I will continue cultivating cross-
sector partnerships and will stay firmly committed to the 
belief that, as public servants, we must always show respect 
and compassion for the families that we serve.
    Finally, if confirmed, I will work closely with Secretary 
Castro and the dedicated HUD staff to create opportunities for 
the nearly 3.2 million households served by the Office of 
Public and Indian Housing; to strengthen existing partnerships 
with public housing authorities and Native American 
communities; and to sharpen HUD's focus on outcomes to ensure 
that our tax dollars are spent wisely and prudently.
    Mr. Chairman, thank you and thank you to the Committee for 
considering my nomination to be Assistant Secretary for Public 
and Indian Housing. I am deeply honored to be here, and I look 
forward to your questions.
    Chairman Johnson. Thank you.
    Ms. McMillan, do you have any family?
    Ms. McMillan. Yes, I do, Mr. Chairman, and thank you so 
much for the opportunity to introduce them. My husband, Rod 
McMillan, and my daughter, Nadine McMillan, are here today. And 
I also want to acknowledge my other daughter, Madeline 
McMillan, who lives in Los Angeles.
    Thank you.
    Chairman Johnson. Please proceed.

STATEMENT OF THERESE W. McMILLAN, OF CALIFORNIA, TO BE FEDERAL 
      TRANSIT ADMINISTRATOR, DEPARTMENT OF TRANSPORTATION

    Ms. McMillan. Again, thank you, Mr. Chairman, and to other 
Members of the Committee. I am so pleased to have the 
opportunity to come before you today as President Obama's 
nominee for Administrator of the Federal Transit 
Administration.
    As you know, I have been working and serving the American 
people as part of the FTA since July of 2009 when the 
Administration appointed me to the position of Deputy 
Administrator. It has been a privilege to serve at a time when 
the demand for transit is on the rise. But I would like to 
stress that I have been a public servant my entire professional 
career. I have not been enticed to work outside of the public 
sector because I truly believe that merging a community's 
vision with responsive and responsible Government can make 
good--sometimes great--things happen. If confirmed, I look 
forward to working with you and all Members of the Committee to 
help deliver vital transit services to the public.
    I know firsthand what transit can mean to the user, because 
I am one. Now, I grew up in Los Angeles, at a time when that 
city was the consummate ``car capital.'' As a child, I rode the 
bus with my grandmother and my auntie who could not drive, and 
as I grew up, I used transit to get to summer school, to much 
of high school, and my freshman year at UCLA.
    Later, when I moved to the San Francisco Bay Area, I used 
the region's extensive public transit systems whenever I could, 
and I appreciated the fact that I had a viable option to 
driving.
    And in the 5 years I have lived in Washington, DC, I have 
not owned a car, and I realize every day both the advantages 
and the tests that come with that choice. That understanding 
fuels my passion for this work.
    Across the country, public transit is asked to do many 
things: to address congestion; to help move our economy; to 
provide real mobility to those whose options are limited by 
income, disability, or age; to be the thread that links 
individuals to jobs, education, and health care.
    But like much of our Nation's transportation system, our 
transit infrastructure is fraying at the seams, facing an $86 
billion deficit in critical reinvestments in existing rails, 
trains, buses, and stations.
    At FTA, I have worked to address state of good repair, 
safety, emergency relief, strategic expansion, and economic 
development. And across the board, I have been able to build on 
my past 25-plus years of experience working at the local and 
regional level, where I had to actually implement Federal 
policy and deal firsthand with the opportunities and challenges 
of doing so.
    Bearing on that experience, I have implemented successful 
reforms within FTA aimed at making our processes and procedures 
more efficient, effective, and transparent to those that need 
to use them or who are otherwise affected by them.
    I have streamlined our audit process, greatly improved our 
processes for civil rights oversight, and I have worked to 
ensure FTA's grantmaking system is more secure and accountable 
than ever before.
    Ultimately, FTA's customers are your constituents. They 
reside in every State; in big cities with huge networks of rail 
and buses; and in small rural and tribal communities where 
paratransit vans provide critical links to scattered services.
    For me, the most informative and rewarding part of working 
at FTA has been traveling across the country to meet those 
riders and the devoted people who provide the transit services 
that they rely on. Whether they take the commuter train to work 
because they choose to or a late-night bus because they must, 
those riders have a voice that deserves to be heard.
    I will do the best job I can as FTA Administrator to listen 
and to continue to partner with the transit industry and its 
customers through our Federal programs. And I look forward to 
working with all of the Committee to do that, should you grant 
me the opportunity through confirmation.
    Thank you, Mr. Chairman, and I am happy to answer any 
questions that you have.
    Chairman Johnson. Thank you both very much.
    Ms. McMillan, prior to MAP-21, the number of trips in 
Tribal Transit grew from 700,000 in 2007 to more than 2.4 
million trips in 2012, a more than threefold increase. MAP-21 
created a formula to provide stable funding to support these 
essential services which provide access to jobs and medical 
care throughout Indian country.
    How do you think the Tribal Transit Program is performing? 
And what can be done to continue the program's success?
    Ms. McMillan. Thank you very much, Mr. Chairman, for that 
question, and I would like to first acknowledge as well that 
the funding level for Tribal Transit was doubled in MAP-21. 
Prior to that, as you well know, it had been $15 million for a 
discretionary program and, of course, with your support and the 
Committee's work, was increased to a combined $30 million--$25 
million in the formula program and $5 million for the 
discretionary program.
    For the Federal Transit Administration, we first did 
extensive consultation with the tribal nations to make sure 
that they understood what the transition from moving from a 
discretionary program to a formula program would be. As you 
well noted, the formula program brought with it more 
predictability, but we needed to make sure that the tribes 
understood what would be the new procedures and what funding 
levels would be available to them.
    As part of that, we did some specific transitional elements 
in implementing to change to make it as smooth as possible. We 
conducted a number of workshops, and we will continue to 
provide technical assistance to tribal nations as we work to 
continue implementing the program.
    Chairman Johnson. Ms. Castro Ramirez, last month Secretary 
Castro joined me to see housing and economic development 
conditions on the Pine Ridge Indian Reservation for himself. If 
confirmed, will you engage in meaningful consultation with 
tribes and work to fulfill the Federal Government's treaty and 
trust responsibilities to address housing and home ownership 
needs in Indian country?
    Ms. Castro Ramirez. Mr. Chairman, thank you very much for 
the question, and I, too, would like to acknowledge your 
leadership and the leadership of this Committee in promoting a 
focus on Native American housing issues.
    I did have an opportunity to also meet with Senator 
Heitkamp and hear from her directly in terms of the priorities, 
and I also understand that the visit that Secretary Castro 
made, along with yourself, Mr. Chairman, and Senator Heitkamp, 
to South Dakota and North Dakota was a visit that was very 
important, and there was robust discussion and focus.
    If I am confirmed, Mr. Chairman, absolutely you have my 
commitment to continue to better understand the housing 
conditions and the opportunities that the Office of Public and 
Indian Housing has in working and consulting with tribal 
nations, both in South Dakota and North Dakota, but across this 
country.
    Chairman Johnson. Ms. McMillan, our transit providers in 
South Dakota tell me that the additional formula money in MAP-
21 has been helpful, but they are having significant trouble 
finding sources of funding for bus replacement, which is a 
large, one-time expense for small transit agencies.
    Would you support the return of a competitive bus program 
which helped both rural and urban transit agencies?
    Ms. McMillan. Mr. Chairman, I appreciate that question very 
much, because if there is one area where we have heard 
consistently that we need to have perhaps a revisiting of some 
of the new elements in MAP-21, it was with the bus and bus 
facilities program. I think there was an acknowledgment among 
all transit operators, be they large or small- and medium-size 
operators, that the predictability with a transition to a 
formula program was appreciated, but that in many instances the 
formula shares that they received were not commensurate with 
the needs and made it particularly difficult, as you pointed 
out, to do one-time large expenditures, be it for a major bus 
purchase or a new maintenance facility or the like.
    That has prompted us to propose, as I know you know, under 
the Administration's reauthorization proposal, GROW AMERICA, 
that we do two things: one would be to significantly increase 
the funding levels for the bus and bus facilities program; the 
Administration's proposal is to quadruple it from current 
levels; but very importantly, to also reintroduce a 
discretionary element, so to have roughly 70 percent of the 
program continue on a formula basis to preserve that 
predictability but, importantly, to bring back a discretionary 
element for the circumstances that you described. And we look 
very much forward to working with you as reauthorization 
proceeds going forward to pursue those elements.
    Chairman Johnson. Ms. Castro Ramirez, many PHAs in my State 
feel that HUD reporting requirements are burdensome and even 
duplicative in some cases. At the same time, PIH has a 
responsibility to collect the information necessary for 
effective oversight.
    If confirmed, will you work to find the right balance in 
HUD's reporting requirements and information systems so that 
HUD, Congress, and the public can get information we need for 
oversight and accountability while reducing burdens on PHAs?
    Ms. Castro Ramirez. Mr. Chairman, thank you for the 
question. As you know, I currently serve in the capacity of 
president and CEO of the San Antonio Housing Authority, and the 
housing authority has a Moving-to-Work designation, and that 
designation has enabled the housing authority to implement a 
number of innovative programs to meet local needs, but also to 
carry out administrative reforms to streamline programs.
    If I am confirmed, Mr. Chairman, you have my commitment to 
work closely with the Office of Public and Indian Housing and 
to also work closely with the various housing partners to 
identify and implement streamlining both, you know, through 
administrative, regulatory reforms but also to identify, you 
know, statutory options that will enable housing partners to be 
able to deliver programs to the nearly 3.2 million households 
in an efficient and effective manner.
    Chairman Johnson. This is a question for the panel. Can 
each of you tell me what your top priorities would be, should 
you be confirmed? Ms. Castro Ramirez first.
    Ms. Castro Ramirez. Yes, Mr. Chairman. If I am confirmed, I 
hope to be able to bring my extensive experience in affordable 
housing and economic development programs. I have seen 
firsthand that families, individuals, and neighborhoods fare 
better when there is an affordable housing platform.
    I also have worked extensively with a number of partners to 
link families and households to some of the critical services 
that are necessary to ensure stability and ensure success, 
whether that be establishing partnerships with local school 
districts or working with the local workforce development 
agencies to promote job opportunities. If I am confirmed, my 
priorities will be first and foremost to work closely with the 
Secretary to advance his vision of creating the Department of 
HUD a Department of Opportunity. And the areas of focus would 
be, one, to strengthen the core affordable housing and housing 
assistance programs; second, to expand the innovative programs 
that are working and to expand partnerships to improve the 
quality of life for the families that are served through the 
Office of Public and Indian Housing; and, last, to identify 
administrative reforms and streamline program operations to 
ensure the delivery of housing programs in an efficient and 
effective manner.
    Chairman Johnson. Ms. McMillan, what are your priorities?
    Ms. McMillan. Well, Mr. Chairman, let me start first by 
saying that in the experience that I had even prior to coming 
to the Federal Transit Administration, I worked a lot with the 
multiple transit agencies in the San Francisco Bay Area, and a 
major concern at that time was preserving the existing 
infrastructure of the billions of dollars that have been 
already invested in public transport. They need to be reliable. 
They need to be effective. They need to be safe.
    As an everyday user now, I know the frustration when it is 
late or when the bus breaks down. So it is an important part of 
people's lives, and keeping our current investments in a state 
of good repair and safe is critical.
    I think particularly with safety, I am committed to 
advancing FTA's new safety authority that this Committee 
granted us as part of MAP-21. It is absolutely critical. Public 
transit is already a very safe mode, but I have to say there is 
no cap on vigilance when it comes to keeping the American 
public safe, and I am committed to a large focus on 
implementing our new authority.
    Second, I think it's important--and we have a great 
opportunity--to strategically expand public transportation for 
those who want to have it. My daughter in Los Angeles was 
really looking for an apartment in L.A., and one of the top 
things that was important to her was access, walkable access, 
to the metro station in Los Angeles, to the metro system there. 
And I think it is emblematic of what this younger generation is 
looking for. They really do want to have options to how they 
get around. And I believe that public transport and the work 
that the Federal Transit Administration can do to partner with 
State and local governments in bringing these options to 
communities is very, very exciting.
    Third, it is extremely important that we be able to provide 
public transportation to anyone who needs or wants to use it. 
It cannot be stressed enough, in my view, that access to 
employment and education and services has to be at the 
forefront of our objectives of why we are providing 
transportation, and in this case public transit specifically.
    And I am also personally very interested in advancing 
workforce development as part of that combination of benefits 
that can come with public transport. This industry needs a 
well-trained workforce in a number of new areas, particularly 
with new technologies that are coming online in the field. We 
need workforce contributions in construction, in operations and 
maintenance, and for communities where these existing public 
transportation services exist or where new projects are coming 
online, to the extent that we can develop a career pathway to 
involve those communities in the delivery of the service, I 
think there are exciting opportunities to do that. And I am 
looking forward to working on that area as well.
    Chairman Johnson. Ms. McMillan, the transit providers in 
South Dakota work with the State's Medicaid program and VA 
facilities to deliver coordinated service. How will you work to 
improve coordination with other Federal programs that fund 
local transportation service, particularly nonemergency medical 
transportation under Medicaid?
    Ms. McMillan. Mr. Chairman, I very much appreciate that 
question because this is an area where we have made some 
important gains, but also there are many opportunities, I 
think, for continued work.
    First of all, I think we need to acknowledge that all major 
urbanized areas as well as many of the smaller rural 
communities have effective public transportation human services 
plans and relationships with multiple other Federal, State, and 
local agencies for the delivery of public transportation 
services.
    We have seen an increased attention and funding for 
mobility management, which I think is an extremely important 
concept whereby the focus is on the customer's needs to get 
from Point A to Point B, and we have programs and personnel who 
can match that travel requirement with whatever service is 
available and make the most sense, be it fixed-route service or 
paratransit service or specialized services delivered by other 
agencies.
    We have had some success in coordinating and funding these 
joint services. I point to the Veterans Transportation and 
Community Living Initiative that the Federal Transit 
Administration had advanced and funded in fiscal years 2011 and 
2012, where we saw very valuable coordination between the DOT, 
the Department of Veterans Affairs, and the Department of Labor 
in pulling together resources to establish one-call, one-click 
centers to coordinate services for veterans and their families, 
again, matching public transportation services or services 
provided by the VA in those circumstances.
    But I believe there are many, many more opportunities to 
extend that concept, and you pointed to a key one, which is 
transport services provided by HHS and funded with Medicaid. I 
think there is a tremendous opportunity and need to more 
effectively manage our Federal resources in that circumstance, 
and I would look forward to working with the Committee on 
getting some advances in that done if I were confirmed.
    Chairman Johnson. Ms. Castro Ramirez, in your testimony you 
mentioned working with other local agencies and organizations 
to create housing and economic development opportunities in San 
Antonio.
    If confirmed, will you work with other departments within 
HUD and across the Federal Government to help communities and 
tribes across the country create similar opportunities?
    Ms. Castro Ramirez. Mr. Chairman, thank you again for this 
question. Absolutely, if confirmed, I will draw on my extensive 
experience creating partnerships at the local level. I would 
like to share with you the success that we are enjoying in San 
Antonio as it relates to creating partnerships across agencies, 
and I will share with you that--I heard this quote once, and it 
really resonated with me as it relates to why it is important 
to partner. Someone said that ``many cities or many communities 
are rich in programs but poor in systems,'' and so for me, this 
work of partnerships and working across agencies is--the focus 
is to strengthen the communication and the interaction of these 
major institutions and systems that ultimately serve the same 
individual family or neighborhood. And to that end, in San 
Antonio, through the Choice Neighborhoods Initiative, we have 
established a very strong collaboration with the local school 
district, San Antonio Independent School District, with our 
local United Way, who is leading the Promise Neighborhoods 
Initiative. We also have worked very closely with local 
nonprofits that are on the ground, that are promoting economic 
development, including business retention and creating new 
business opportunities. And equally important, we are working 
very closely with the city of San Antonio and the utility 
companies to improve the infrastructure of the neighborhood 
that is the focus of the Choice Initiative.
    That level of collaboration and coordination I think is 
what is necessary to be able to lead transformation and to be 
able to move from a community that has seen disinvestment for 
many years to a community that is being transformed into a 
vibrant and thriving community.
    If I am confirmed, Mr. Chairman, I am fully committed to 
continuing to work across agencies to promote the level of 
collaboration that is taking place at the local level and to 
bring that to the Federal level.
    Chairman Johnson. Ms. McMillan, Congress has extended MAP-
21 only to the end of next May, and both accounts of the 
Highway Trust Fund face a shortfall again next year.
    Ms. McMillan, in your experience at FTA and your prior 
experience at MTC, how does this uncertainty in Federal funding 
hurt local efforts to effectively manage and improve transit 
infrastructure and service?
    Ms. McMillan. Mr. Chairman, you are acknowledging the most 
immediate and critical challenge that we are facing at the 
Department of Transportation right now, and the need to develop 
a multiyear, robust transportation surface funding program is 
absolutely critical. And I am working very closely with 
Secretary Foxx in taking that message as far and loudly as we 
can. And the support of you and the Committee in dealing with 
this upcoming cliff again is just top priority for us. In terms 
of the impacts of what we have heard and what I have 
experienced in my own realm is there are two major areas I 
would point out where this uncertainty hurts, particularly for 
smaller transit agencies that receive operating funding, and a 
major part of their operating funding through the Federal 
program. The lack of predictability hits home directly in terms 
of their ability to adequately and satisfactorily put service 
out on the road to meet the needs of their users. Many of our 
larger systems that may have substantial State or local funds 
to complement the Federal dollars have a little bit more leeway 
there. But even in those circumstances, the lack of being able 
to predict better what your budgets are going to be year to 
year really impedes effective planning and service delivery.
    In terms of major Federal contracts for capital projects, 
be they reinvestment in the existing infrastructure or new 
projects, again, the lack of stability and predictability of 
the critical role of Federal dollars in delivering that hampers 
any major commitments for new projects and, importantly, I 
think, also hampers local elected officials and others in their 
visions of what they want to do for their communities, because 
they cannot count on one of the important partners that are 
needed to deliver those visions being at the table.
    So that is the atmosphere within which we need to work and 
I think underscores all the more why we need to make fixing 
this problem paramount. And I certainly look forward to working 
with the Committee in doing just that.
    Chairman Johnson. Ms. Castro Ramirez, PIH oversees $26 
billion in housing assistance programs delivered through a 
network of State, local, and tribal agencies. How has your 
background prepared you to oversee this large organization and 
ensure accountability for taxpayers and families these programs 
are designed to assist?
    Ms. Castro Ramirez. Mr. Chairman, you are correct, the 
Office of Public and Indian Housing is very broad and covers--
very large and covers many families through some critical 
housing programs.
    With regard to my background, as I had an opportunity to 
share earlier, my managerial and leadership skills both in the 
affordable housing industry and also directly in working with 
public housing authorities has been very crucial in shaping my 
approach and style of management and oversight. When I was the 
director of the Section 8 program in L.A.--the Section 8 
program is the second largest Section 8 program across the 
country. It serves well over 50,000 families, and at that time 
the annual budget was just over $400 million. So the 
responsibility connected to managing well over 400 staff 
members and being responsible for providing appropriate subsidy 
to support 50,000 families who were on the program was--I took 
that responsibility very seriously.
    When I joined the Section 8 program, as I mentioned, the 
Section 8 program was troubled. There were a number of 
compliance concerns. There were a number of concerns with 
regard to the leasing of vouchers. My approach to addressing 
the problem was to work closely with the Section 8 staff and 
the team, to work also closely with the Office of the Inspector 
General, who at the time was involved in L.A., and to develop a 
corrective action plan that would enable the Department to 
correct the number of items and deficiencies, but also to 
implement new internal controls to ensure that this program 
would not get itself into trouble again. So I think that 
experience of working very closely with a program and staff 
members and the Office of the Inspector General and the 
leadership of the agency is an example of the type of 
managerial and leadership skills that I would bring.
    Currently in my capacity as CEO of the San Antonio Housing 
Authority, I am responsible for a budget of just about $187 
million annually with total assets of over $500 million. For 
the past 4 years, the external financial audits have been 
unqualified opinions, no material weaknesses. And, again, I 
believe that that really has largely been a function of the 
reforms that the San Antonio Housing Authority Board and myself 
have implemented to ensure that we are guarding the taxpayers' 
trust in our ability to be able to manage and deliver these 
critical programs.
    Chairman Johnson. Ms. Castro Ramirez, in your testimony you 
mentioned several education-related initiatives that you are 
undertaking in San Antonio, such as creating libraries in local 
family housing developments. Can you talk about the importance 
of safe, stable housing for improving children's lives and why 
chose to undertake these education-related initiatives in San 
Antonio?
    Ms. Castro Ramirez. I very much appreciate this question, 
Mr. Chairman. As the first in my family to graduate from high 
school and go on to college, I have seen firsthand the power of 
education and how it creates opportunities. Specifically in San 
Antonio, within our public housing program and Section 8, 50 
percent of the individuals that are served by the housing 
authority are children under the age of 17. And so for us, 
understanding that 50 percent of the population are children 
and youth, education had to become a priority. Also, 
importantly, our mayor at the time, Mayor Castro, launched a 
citywide initiative focused on promoting education and creating 
greater access, both through the Pre-K 4 SA program, which 
provided access to toddlers and children to attend a pre-K 
program, but also by establishing resources such as the Cafe 
College, to create access for youth that were looking to go on 
to higher education. So the focus on education, understanding 
who we are serving, has been really the driving force, and we 
have had much success establishing partnerships with both 
school districts and also education providers in the area to 
ensure that we are providing educational resources at the 
public housing properties. As an example, we implemented a free 
Wi-Fi program at 40 public housing properties to ensure that 
there was adequate access. We also have partnered with a local 
community college and several businesses to create libraries at 
some of our family public housing properties. And, last, for 
the last 2 years, we have hosted an education summit that 
brings together children and their parents and providers to 
recognize the achievements that children and youth are making 
within the realm of education. This year, we had 166 youth who 
made a pledge to go to college, and we also awarded 40 college 
scholarships in the amount of about $1,500 to 40 youths that 
are going on to college or continuing their college education. 
Again, I think education is very important, and I look forward 
to exploring opportunities, if I am confirmed, opportunities 
within the Office of Public and Indian Housing to continue to 
strengthen the relationship between HUD and the Department of 
Education.
    Chairman Johnson. I thank the nominees for your testimony 
and for your willingness to serve our Nation. I will remind 
Members to submit questions for the record by the close of 
business tomorrow, Friday, November 14. Nominees, please submit 
your answers to the written questions as soon as possible so 
that we can move your nominations forward in a timely manner. 
This hearing is adjourned.
    Ms. Castro Ramirez. Thank you.
    Ms. McMillan. Thank you, Mr. Chairman.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of nominees, 
responses to written questions, and additional material 
supplied for the record follow:]
                PREPARED STATEMENT OF SENATOR MIKE CRAPO
    Thank you, Mr. Chairman. Today the Committee is considering two 
important nominations for two different organizations: Acting 
Administrator Therese W. McMillan, to be Federal Transit Administrator 
(FTA) for the U.S. Department of Transportation, and Ms. Lourdes Maria 
Castro Ramirez, to be an Assistant Secretary of Housing and Urban 
Development (HUD). Since the Chairman has been very thorough in his 
explanation of our nominees, I'll be brief.
    Ms. McMillan brings 30 years of transportation experience to the 
role of Federal Transit Administrator, including 5 years at the agency 
prior to this nomination. If confirmed as FTA Administrator, Ms. 
McMillan will lead a staff of more than 500 employees in Washington, 
DC, oversee 10 regional offices and manage an annual budget of 
approximately $10 billion.
    In October 2013, as part of its implementation of MAP-21, the FTA 
released an Advanced Notice of Proposed Rulemaking in the areas of 
Safety and Transit Asset Management. This Notice is of great interest 
to myself and several other Members of this Committee who have all 
raised concerns with the potential outcome being overly prescriptive. 
At the March 2014 Transit Hearing, we heard from private sector 
witnesses who also shared our concern that, if done improperly, some 
small systems could be subject to overly burdensome regulations that 
are inappropriate to their size. Today, I would like to hear how Ms. 
McMillan would proceed with the implementation of MAP-21 while 
balancing the needs of all systems, both large and small.
    Our other nominee today is Ms. Castro Ramirez. Currently, Ms. 
Castro Ramirez serves as the President and Chief Executive Officer for 
the San Antonio Housing Authority. She brings approximately 15 years 
working with Housing Authorities in California and Texas. If confirmed, 
Ms. Castro Ramirez will oversee the Nation's public housing and rental 
assistance programs that assist approximately 3.2 million low-income 
families across the U.S. Also, she would be responsible for the 
Department's Native American and Native Hawaiian programs, which serve 
562 federally recognized tribes. While Ms. Castro Ramirez has public 
housing experience from previous positions, Indian Housing is a big 
part of this job and incredibly important in Idaho, so I appreciate her 
willingness to learn the latter in her new capacity as well.
    Although it is not the topic of today's hearing, I must take this 
opportunity to express frustration with how HUD has handled a situation 
that is affecting many constituents in Idaho. Last month, HUD released 
guidelines related to Recreational Vehicles that they termed a 
``reiteration.'' Because HUD termed it a reiteration, these guidelines 
went through without the benefit of any public comment or input. 
Consequently, the new guidelines for what defines a recreational 
vehicle could have serious negative implications for RV owners, 
dealers, and manufactures.
    The lack of due process and public input also comes at an economic 
cost to many small business men and women who make their livings owning 
and operating campgrounds. It is now incumbent upon HUD to fix this 
situation and mitigate the real consequences that have been created. I 
look forward to hearing from each of our nominees on these important 
issues and more, and working with Chairman Johnson regarding these 
nominations.
    Thank you, Mr. Chairman.
                                 ______
                                 
             PREPARED STATEMENT OF SENATOR ROBERT MENENDEZ
    I'd like to thank our nominees for their willingness to serve in 
these important positions. The work of both the Office of Public and 
Indian Housing and the Federal Transit Administration has significant 
impact on the everyday lives of many New Jerseyans, and having strong 
leadership for these positions is critical.
    The position of Federal Transit Administrator is particularly 
important to the future of our Nation's mobility and economic 
development. As our population ages, providing sources of 
transportation that go beyond the car will be vital to ensuring that 
our seniors remain connected, active members of their communities.
    At the same time, younger generations are driving less, and showing 
a strong preference for living car-free in transit-oriented 
neighborhoods. The old notion that we can solve our transportation 
problems solely by building bigger roadways is out of date, and 
inadequate to meet the needs of today.
    Having strong transit infrastructure is especially critical in New 
Jersey. Each year, the broader New Jersey/New York/Connecticut 
metropolitan region sees more than 4 billion transit trips--and without 
these trips, our region's transportation system would be brought to a 
standstill.
    In the coming years, we face significant challenges in maintaining 
these networks, including building new, flood-resistant tunnels under 
the Hudson River and replacing the 104-year-old Portal Bridge. To deal 
with challenges like these, we must be willing to increase our 
investment in transit infrastructure.
    We must resist a status quo that has led us to transit systems that 
are overcrowded, fraught with delays and overburdened by an $86 billion 
repair backlog simply to keep them from falling apart.
    These problems are too important to leave unaddressed. I look 
forward to hearing Ms. McMillan's thoughts on how we can work together 
to meet these challenges.
    I also look forward to hearing from Ms. Castro Ramirez, who has 
been nominated to lead the Department of Housing and Urban 
Development's Office of Public and Indian Housing.
    This office oversees a number of critical areas, including tenant-
based rental assistance, public housing, and the Choice Neighborhoods 
Initiative for revitalizing struggling communities. These programs are 
a lifeline for some of the most vulnerable members of our communities, 
and provide the housing stability necessary for children to succeed in 
school, adults to find and keep jobs, and seniors and persons with 
disabilities to connect with supportive services. As a former mayor, I 
know how vital Federal resources are in this area to local communities.
    I look forward to hearing more from both of our witnesses today.
                                 ______
                                 
           PREPARED STATEMENT OF LOURDES MARIA CASTRO RAMIREZ
To Be Assistant Secretary for Public and Indian Housing, Department of 
                     Housing and Urban Development
                           November 13, 2014
    Chairman Johnson, Ranking Member Crapo, and distinguished Members 
of the Committee. I am deeply honored and grateful to President Obama 
and Secretary Castro for their confidence in me and for this 
opportunity to be before you as you consider my nomination to serve as 
Assistant Secretary for Public and Indian Housing at the U.S. 
Department of Housing and Urban Development.
    I would like to acknowledge my beloved husband Jorge Ramirez, and 
my children Jorge, Natalia, and Nicolas--who's brave and tender spirit 
is always with us. I also thank my hardworking parents, Guadalupe and 
Toribio Castro, my brothers and sisters, and many friends for their 
love and support.
    My qualifications for this appointment were shaped by my parents' 
struggles and informed by my education, my community engagement, and my 
professional experience, including nearly 20 years leading and managing 
affordable housing and innovative economic development programs.
    I was born in a small rural town in Jalisco, Mexico. When I was 
four, my family relocated to California where my parents sought work, 
stable housing and a better future for me and my siblings. My parents 
instilled in us responsibility, service to others, education, and a 
strong work ethic. These values and their daily sacrifices had a 
profound, formative impact on me, propelling me to work hard, be a role 
model for my eight younger siblings and become the first in my extended 
family to attend college and receive both Bachelor's and Master's 
degrees.
    As a student at UCLA, I maintained a strong connection to my 
hometown of Lynwood California, and actively served on a number of 
committees and student groups that were focused on improving conditions 
of low-income neighborhoods.
    In 1996, I began my career in community development when I joined 
Cabrillo Economic Development Corporation (CEDC) in Ventura County, 
California. As a Community Planner, I organized and promoted resident 
leadership initiatives in multiple low-income rural and urban 
neighborhoods through community building and advocacy.
    Soon, I was recruited to join the Housing Authority of the City of 
Los Angeles (HACLA), where for 10 years I worked with residents, 
dedicated staff and local stakeholders to increase affordable housing 
opportunities and investments in people. During my years with HACLA, I 
am most proud of my leadership of LA Jobs-Plus, a nationally recognized 
program that substantially increased the earnings of public housing 
residents in two of L.A.'s most blighted communities: Watts and East 
Los Angeles.
    From 2006-2009, I also served as director of HACLA's Housing Choice 
Voucher Program, the Nation's second largest Section 8 program. During 
my tenure, the Section 8 Program went from ``Troubled'' to ``High 
Performer'' status in less than 3 years, as my team responsibly managed 
a budget of approximately $420 million and assisted more than 50,000 
families.
    Since April 2009, I have had the privilege of leading the San 
Antonio Housing Authority, a Moving-to-Work Agency. As SAHA's President 
and CEO, I have fostered a culture of collaboration and accountability 
that has resulted in safe and affordable housing for nearly 65,000 
children, adults, and seniors. Our Agency established extensive 
partnerships to significantly improve operational performance, expand 
housing availability through the creation of new housing units, and 
launch a comprehensive and integrated placed-based neighborhood 
initiative focused on building strong families and communities. The 
tangible results of these efforts have benefited San Antonio in three 
critical ways.
    First, SAHA secured almost $187 million in new Federal, State, 
local, and private investments to build 424 new affordable housing 
units and redevelop three public housing communities creating 1,043 new 
mixed-income housing units. Today, San Antonio's stock of affordable 
housing is larger than ever.
    Second, SAHA competed for and was awarded $30 million in HUD Choice 
Neighborhood Planning and Implementation Grants to redevelop the 
Wheatley Courts community on San Antonio's Eastside. The impact of 
SAHA's Choice Neighborhood Initiative was enhanced with a Byrne 
Criminal Justice Grant to develop community-oriented strategies for 
reducing criminal activity in the same neighborhood. SAHA's receipt of 
Choice and Byrne grants, along with a Promise Neighborhood Grant 
awarded to the local United Way, made San Antonio the only community in 
the Nation to be awarded all three White House Neighborhood 
Revitalization Initiative grants. These integrated activities have 
leveraged significant public and private investments, triggering wide-
scale recovery in a long-neglected community.
    Third, SAHA has advanced the goals of the Federal Moving-to-Work 
program and demonstrated a consistent commitment to community-wide 
economic development. We have built a free Wi-Fi platform at 40 public 
housing properties, providing easy access to workforce development 
resources for the adults who live there. We have added children's 
libraries at 10 family housing sites, offering early learning and 
educational enrichment resources, and in 2013 SAHA coordinated the 
first Education Summit, at which hundreds of youth received honors 
ranging from perfect attendance awards to college scholarships. And 
arguably of greatest impact: there are more than 1,900 ``actively 
engaged'' clients in SAHA's Moving-to-Work initiatives, 40 percent of 
whom are currently employed.
    These initiatives were all accomplished while achieving five 
consecutive fiscal years of clean audits, free of financial findings 
and material weaknesses.
    If confirmed, I will bring each of these experiences and lessons 
learned to the Office of Assistant Secretary for Public and Indian 
Housing. I will remain dedicated to strengthening communities while 
preserving and developing quality affordable housing that meets the 
needs of poor and working families, elderly and disabled individuals, 
homeless veterans, and other special needs populations. I will continue 
cultivating partnerships with public and private stakeholders, a 
defining component in community transformation since no one agency can 
do it alone. In addition, I will remain firmly committed to the belief 
that as public servants, we must always show respect and compassion for 
the families that need our assistance.
    And finally, if confirmed, I will work with Secretary Castro and 
the dedicated HUD staff to: (1) create opportunities for the nearly 3.2 
million households served by the Office of Public and Indian Housing; 
(2) strengthen existing partnerships with the 4,000 public housing 
authorities and 566 Native American communities across America; and, 
(3) sharpen HUD's focus on outcomes, not only inputs, to ensure that 
tax dollars are spent wisely and prudently.
    Again, thank you for considering my nomination to be Assistant 
Secretary for Public and Indian Housing. It is an honor to be here and 
I look forward to your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               PREPARED STATEMENT OF THERESE W. McMILLAN
   To Be Federal Transit Administrator, Department of Transportation
                           November 13, 2014
    Thank you, Mr. Chairman, Ranking Member Crapo, and Members of the 
Committee for the opportunity to come before you today as President 
Obama's Nominee for Administrator of the Federal Transit 
Administration.
    Before I begin my formal remarks, I would like to acknowledge my 
husband, Rod McMillan and my daughter Nadine McMillan who are here 
today, as well as my daughter Madeline McMillan, who lives in Los 
Angeles.
    Their support has been essential to my career, and I am thankful to 
them every day!
    As you know I have been serving the American people as part of the 
FTA since July 2009 when the Administration appointed me to the 
position of Deputy Administrator.
    It's been a privilege to serve at a time when the demand for 
transit is on the rise.
    But I want to stress that I have been a public servant my entire 
professional career. I haven't been enticed to work outside of the 
public sector, because I truly believe that merging a community's 
vision with responsive, responsible Government can make good (sometimes 
great!) things happen.
    If confirmed, I look forward to working with YOU and all Members of 
this Committee to help deliver vital transit services to the public.
    I know first-hand what transit can mean to the user--because I am 
one.
    I grew up in Los Angeles, at a time when that city was the 
consummate ``car capital.''
    As a child, I rode the bus with my grandmother and auntie who 
couldn't drive, and as I grew up, I used transit to get to summer 
school, much of high school, and my freshman year at UCLA.
    When I moved to the S.F. Bay Area, I used the region's extensive 
public transit systems whenever I could--and I appreciated the fact 
that I had a viable option to driving. In the 5 years I have lived in 
Washington, DC, I have not owned a car--and I realize every day both 
the advantages and tests that come with that choice.
    That understanding fuels my passion for this work.
    Across the country, Public Transit is asked to do many things

  <bullet>  to address congestion;

  <bullet>  to help move our economy;

  <bullet>  to provide real mobility to those whose options are limited 
        by income, disability, or age;

  <bullet>  to be the thread that links individuals to jobs, education, 
        and health care.

    But like much of our Nation's transportation system, our transit 
infrastructure is fraying at the seams--facing an $86 billion deficit 
in critical reinvestments in existing rails, trains, buses, and 
stations.
    At FTA, I have worked to address State of Good Repair, Safety, 
Emergency Relief, Strategic expansion and economic development.
    Across the board, I have been able to build on my past 25+ years of 
experience working at the local and regional level, where I had to 
actually implement Federal policy--and deal first-hand with the 
opportunities and challenges in doing so.
    Bearing on that experience, I have implemented successful reforms 
within FTA aimed at making our processes and procedures more efficient, 
effective, and transparent to those that need to use them--or are 
otherwise affected by them.
    I have streamlined our audit process, greatly improved our 
processes for Civil Rights oversight, and I have worked to ensure FTA's 
grant making system is more secure and accountable than ever.
    Ultimately, FTA's customers are your constituents--they reside in 
every State, in big cities with huge networks of rail and buses; and in 
small rural and tribal communities where paratransit vans provide 
critical links to scattered services.
    For me, the most informative and rewarding part of working at FTA 
has been traveling across the country to meet those riders and to talk 
to the devoted people who provide the transit services they rely on. 
Whether they take the commuter train to work because they choose to, or 
take a late night bus because they must, those riders have a voice that 
deserves to be heard.
    I will do the best job I can as FTA Administrator to listen--and to 
continue to partner with the transit industry and its customers through 
our Federal programs. And I look forward to working with all of you to 
do that, should you grant me that opportunity through confirmation.
    Thank you Mr. Chairman, and Members of the Committee, and I am 
happy to answer any questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
               FROM LOURDES MARIA CASTRO RAMIREZ

Q.1. As President and CEO of the San Antonio Housing 
Authority--a Moving-to-Work (MTW) designated agency--you know 
first-hand the incredible benefits the MTW program has provided 
your residents. In fact, in a recent report, you note that 
Moving-to-Work allows the San Antonio Housing Authority to 
``streamline and reduce Federal expenditures while 
systematically improving its housing stock, providing 
supportive services, and increasing housing choices for low-
income families in San Antonio.'' I too have been a strong 
proponent of this program, urging that it be expanded to areas 
like my home State of Idaho.
    If confirmed, can we depend upon you to advocate that the 
Administration request a significant expansion of the MTW 
program, as well as to urge for the extensions of existing MTW 
contracts?

A.1. Under my leadership, and in partnership with local 
stakeholders, the San Antonio Housing Authority (SAHA) has 
developed a thoughtful and effective Moving-to-Work (MTW) 
program that is achieving greater cost effectiveness in Federal 
expenditures; providing incentives that promote self-
sufficiency; and increasing housing choices for low-income 
families in San Antonio.
    SAHA has implemented several cost efficiency measures that 
not only streamline fundamental business processes but also 
provide better customer service to our residents. For example, 
the implementation of biennial reexaminations for elderly and 
disabled participant households resulted in a 30 percent 
reduction in the operational costs related to recertifications.
    Funding and programming for resident development and family 
self-sufficiency initiatives continues to grow and attain 
strong people outcomes. Today, there are more than 1,900 adults 
actively engaged in self-sufficiency activities, and 40 percent 
of them are employed.
    Investments in activities geared toward promoting resident 
development through education have included providing free Wi-
Fi access at 40 public housing properties; establishing 
children's libraries at 12 family housing sites; and 
coordinating the Education Summit, where we recognized children 
and youth for academic achievement and awarded college 
scholarships.
    Finally, SAHA adopted an Affordable Housing Preservation 
and Expansion Policy that established the principles, goals, 
priorities, and strategies to preserve and expand the supply of 
affordable housing. In the last 5 years, SAHA expanded the 
supply of affordable housing by securing $187 million in 
financing, through public-private partnerships, to build almost 
1,500 new rental housing units.
    If confirmed, I look forward to engaging with you, other 
Members of the Senate Banking Committee and housing partners to 
explore the best path forward with respect to existing MTW 
agencies and those PHAs seeking to become MTW agencies. I also 
look forward to increasing awareness of the positive impact 
that the MTW program is making in delivering critical housing 
resources, promoting self-sufficiency, reducing administrative 
costs, and implementing appropriate monitoring and evaluation 
protocols.
                                ------                                


           RESPONSES TO WRITTEN QUESTIONS OF SENATOR
           MENENDEZ FROM LOURDES MARIA CASTRO RAMIREZ

Q.1. As you know, HUD's Office of Public and Indian Housing 
oversees critical initiatives for helping some of the most 
vulnerable members of our communities find affordable housing--
in many cases providing the housing stability children need to 
succeed in school and parents need to find and keep a job, and 
that allows seniors and persons with disabilities to connect 
with supportive services. In particular, I know you have 
experience with the Housing Choice Voucher program, among 
others, in both San Antonio and Los Angeles.
    Can you please discuss the importance of Housing Choice 
Vouchers, your experience managing the program at the local 
level, and your priorities for it if you are confirmed?

A.1. The Housing Choice Voucher (HCV) Program is a critically 
important housing assistance program serving approximately 2.2 
million extremely low and very-low income families, and 
enabling households to rent in the community of their choice. I 
have had extensive experience managing and leading the HCV 
program at the local level, both in Los Angeles and San 
Antonio. If confirmed, I look forward to relying on my 
extensive managerial and leaderships skills to strengthen the 
HCV Program.
    From 2006-2009, I served as director of LA's Housing Choice 
Voucher Program, the Nation's second largest Section 8 program. 
During my tenure, the Section 8 Program went from ``Troubled'' 
to ``High Performer'' status in less than 3 years, yielding a 
37 percent performance increase on HUD's scorecard, from 59 
percent to 96 percent. In my capacity as Director, I was 
responsible for managing a budget of approximately $400 million 
in Federal rental subsidies and overseeing a 400-member staff 
assisting more than 50,000 families.
    To improve service delivery and efficiency, I worked with 
my management team and with the Agency's IT Department to 
complete a major modernization and seamless software system 
migration of the Section 8 Program. Additionally, I worked 
closely with the Office of the Inspector General to implement 
corrective actions to improve program integrity and internal 
controls.
    In my experience, the Housing Choice Voucher (HCV) Program 
has also been instrumental in combating homelessness. 
Specifically, Los Angeles' large homeless population, combined 
with its relatively limited stock of affordable housing, made 
the availability of subsidized housing crucial to addressing 
the city's homelessness crisis. To that end, we increased the 
number of Section 8 vouchers available to the Homeless Program, 
thereby significantly increasing the existing resources to 
permanently end homelessness for these households.
    In San Antonio, the Housing Choice Voucher Program has 
maintained its High Performer status for four consecutive 
years, from 2010 to 2014.
    Again, if confirmed, I am committed to working with you, 
other Members of the Senate Banking Committee, and public 
housing authorities responsible for administering the HCV 
Program to strengthen this core housing subsidy program, to 
identify regulatory and statutory relief provisions, and to 
streamline operations to deliver housing programs in an 
efficient and effective manner.

Q.2. If confirmed, you would have responsibility for overseeing 
the Choice Neighborhoods Initiative, which provides critical 
support for revitalizing struggling communities with distressed 
housing. As I'm sure you know from your experience in San 
Antonio, the program supports local leadership and targets 
comprehensive efforts that focus on access to good schools, 
jobs, transportation, housing, and commercial development. 
Nationally, the program has been tremendously successful in 
leveraging private capital--even during the challenging 
economic years of 2010 through 2012, Choice Neighborhoods 
grants generated outside investment at a ratio of more than 8-
to-1.
    Can you discuss the importance of these funds and programs 
like Choice Neighborhoods to local communities?

A.2. In San Antonio, the Choice Neighborhoods Initiative (CNI) 
has been catalytic to the revitalization of the Eastside, 
providing critical investment in neighborhood assets, including 
vacant property, housing, services and schools, while also 
advancing self-sufficiency, education, and employment services.
    San Antonio's Eastside is the only area in the United 
States to receive four separate awards under the White House 
Neighborhood Revitalization Initiative (NRI): a HUD Choice 
Neighborhood grant, a Department of Education Promise 
Neighborhood grant, a Department of Justice Byrne grant, and a 
Promise Zone designation.
    For its CNI ``planning'' and ``implementation'' grants, the 
San Antonio Housing Authority (SAHA) partnered with the City of 
San Antonio, United Way, San Antonio Independent School 
District, St. Philip's College, Trinity University, San Antonio 
for Growth on the eastside, VIA Metropolitan Transit Authority, 
local leaders, area businesses, community stakeholders, and 
area residents, to create and implement the Choice 
Transformation Plan. The plan was developed over a 20-month 
period, from April 2011 through December 2012, in more than 30 
community meetings and planning sessions. The plan serves as 
the foundation for multiple initiatives to transform the 
distressed Wheatley Courts public housing development and 
surrounding neighborhood into a new master-planned, safe, 
sustainable, energy-efficient, mixed-income community, with 
high quality schools, health care, transportation and access to 
jobs.
    The Wheatley Courts Choice Neighborhoods plan is focused on 
three core goals:

  1.  Housing: Replace distressed public housing with high-
        quality, mixed-income housing that is well-managed and 
        responsive to the needs of the surrounding 
        neighborhood. Specifically, the Housing plan is to 
        redevelop Wheatley Courts into a 417-unit energy 
        efficient, mixed-income community, and to expand the 
        supply of quality housing with 208 new housing units at 
        The Park at Sutton Oaks, another SAHA property.

  2.  People: The People outcomes focus on families' health, 
        education, safety, and employment, through efforts to 
        encourage and support self-sufficiency and job 
        readiness, and to facilitate access to early childhood 
        and adult education. The educational aspect of the 
        People component is in close partnership with the 
        Promise Neighborhood Initiative, which is overseen by 
        the United Way.

  3.  Neighborhood: The Neighborhood component will transform 
        the neighborhood of poverty into a safe, pedestrian-
        oriented neighborhood, with home ownership 
        opportunities; develop a plan to grow business and 
        retail opportunities; and improve access to health and 
        wellness activities and resources. Abatement of 
        dilapidated structures, rehabilitation of owner-
        occupied units, and development of infill housing will 
        also provide opportunity for investment that will 
        create a significant impact.

Q.3. What are your priorities for community revitalization 
programs like Choice Neighborhoods if you are confirmed?

A.3. If confirmed, my priorities for community revitalization 
programs would include continual support for place-based 
strategies including the Choice Neighborhoods Initiative and 
the Jobs Plus Program.
    A hallmark of my tenure in San Antonio has been preserving 
and expanding affordable housing opportunities, and developing 
strong partnerships that link families to education, jobs, and 
supportive services. As described above, for the past 3 years, 
the San Antonio Housing Authority has been leading a place-
based revitalization effort that includes unprecedented local 
collaboration with significant Federal investments to improve 
housing, education, and safety, through the Choice 
Neighborhoods Initiative, the Department of Education's Promise 
Neighborhoods Initiative, and the Department of Justice's Byrne 
grants.
    I began my work with the Los Angeles Housing Authority 
leading the LA Jobs Plus demonstration program. Jobs Plus is an 
innovative, placed-based employment and community building 
program designed to increase the level of employment, 
education, and earnings among public housing residents. Because 
of its success, several cities from across the country, 
including New York and San Antonio, have adopted and 
implemented this program. Through funding from the Social 
Innovation Fund and the New York Center for Economic 
Opportunity, San Antonio has been implementing Jobs Plus with 
great success, with nearly 900 adults currently involved.
    If confirmed, I will continue to work across agencies to 
coordinate with other Federal partners to align housing, 
education, economic development (jobs), and transit policy to 
support neighborhood revitalization efforts.

Q.4. I'm sure you are well aware from your experience in San 
Antonio of the serious capital funding needs currently facing 
our Nation's public housing authorities--a shortfall of $26 
billion for the maintenance and preservation of affordable 
housing. Meanwhile, the share of families nationwide with 
severe housing cost burdens continues to rise, particularly 
among the most vulnerable--seniors, persons with disabilities, 
and families with extremely low incomes.
    What measures would you support to help close this gap and 
address urgent affordable housing capital needs?

A.4. If confirmed, I pledge to work to preserve and improve the 
affordable housing stock by promoting viable financing tools, 
including but not limited to the Low-Income Housing Tax Credit 
Program, the Federal Capital Fund Program, the Choice 
Neighborhoods Initiative, and the Rental Assistance 
Demonstration Program, each of which enable housing authorities 
to partner and leverage public and private resources to 
rehabilitate properties and revitalize communities.
    Specifically, the Rental Assistance Demonstration (RAD) 
Program is one solution to addressing housing preservation, 
enabling housing authorities to preserve and improve deeply 
affordable properties. Under RAD, housing authorities can 
convert public housing units to a new, more sustainable 
financing mechanism and leverage public and private funding to 
make needed capital improvements while preserving the long-term 
affordability.
    As I understand, across the country, demand for the RAD 
Program has been growing. HUD has approved RAD applications 
covering 60,000 public units as authorized by legislation, and 
due to growing demand HUD has established a waiting list with 
approximately 125,000 public housing units. It is also my 
understanding that HUD needs Congressional approval to lift the 
cap.
    The RAD program is one solution to addressing rental 
housing preservation, and if confirmed, I pledge to work with 
you, other Members of the Senate Banking Committee, and housing 
partners to ensure that programs such as RAD are available to 
housing authorities to address the urgent capital need in 
public housing and stem the loss of critical affordable 
housing.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
               FROM LOURDES MARIA CASTRO RAMIREZ

Q.1. Indian Housing: Ms. Ramirez, as you know, we have immense 
housing needs across Indian Country. I often hear that we have 
three or four families living in a two bedroom home. The Indian 
Housing Block Grant under NAHASDA is one of the most valuable 
tools that we have to reduce the backlog of housing needs in 
Indian communities.
    One of the consistent complaints about the program is that 
more money is being spent on rehabilitating and renovating 
existing housing stock and less money is being devoted to new 
construction.
    What things can we be doing together to provide more 
balance to the use of funds so tribes are not sinking money 
into fixing dilapidated and crumbling housing?

A.1. Housing issues in Indian Country are complex and demand 
integrated solutions. I understand that HUD is currently 
conducting a comprehensive housing needs study which will be 
critical in quantifying and shaping HUD's efforts to address 
the overwhelming housing need in Indian Country. I believe that 
through a cooperative effort, consistent with the Government-
to-Government relationship that HUD has with Indian tribes, HUD 
can begin to effectively address the extraordinary housing 
needs in Indian Country.
    If confirmed, I look forward to visiting Native American 
tribes in Montana and throughout the country to gain a deeper 
understanding of the factors impeding the development of safe 
and affordable housing in Montana and in all of Indian Country.
    Additionally, if confirmed, I look forward to working with 
you, other Members of the Senate Banking Committee as well as 
the Senate Indian Affairs Committee, Secretary Castro, and 
tribal leaders to find viable solutions that will lead to 
improving housing conditions and expanding housing 
opportunities in Indian Country.

Q.2. Indian Veterans Housing: Last month, I was able to get out 
and visit some of Indian Country. On one of my stops in 
Minnesota to the Fond du Lac Reservation, I was able to see an 
Indian veteran's housing project that would be greatly helped 
by the use of HUD/VASH funds. In addition, in my home State of 
Montana, the Crow Tribe is in the process of constructing 
similar housing dedicated to tribal veterans.
    As you are aware, because of program rules, these HUD/VASH 
vouchers provide challenges to tribal housing authorities and 
are not being used.
    We have made attempts to make changes to current law to 
expand the use of these vouchers in Indian Country, but is 
there an administrative solution that can be employed for this?

A.2. I can certainly appreciate the benefit and impact of HUD 
VASH vouchers as I have extensive experience managing and 
overseeing a successful HUD VASH program in San Antonio and in 
Los Angeles. In San Antonio, the housing authority and the VA 
have built a strong, collaborative relationship through regular 
and meaningful communication and agreement on respective roles 
and responsibilities. The partnership reflects a shared goal of 
housing veterans and has resulted in housing more homeless 
veterans. In fact, as a result of this partnership, the San 
Antonio Point-in-Time survey indicates a significant reduction 
in the number of homeless veterans, from 668 in 2010 to 263 in 
2014.
    If confirmed, I look forward to being briefed by HUD's 
Office of Public and Indian Housing on the language included in 
the President's FY2015 request that would allow vouchers to be 
used in Indian Country.
    Additionally, if confirmed, I look forward to working with 
you, other Members of the Senate Banking Committee as well as 
the Senate Indian Affairs Committee, Secretary Castro, and 
tribal leaders to determine how best to address the statutory 
prohibition regarding the use of HUD VASH vouchers in Indian 
Country.

Q.3. RV Definition: As you may be aware, HUD recently released 
a memo regarding the RV Exemption under the Manufactured 
Housing Act. I understand HUD's view that this memo reiterates 
HUD's existing definition of an RV, but it has been viewed by 
many as a significant departure from existing guidance.
    As a result, some units marketed as ``Park Model RVs'' are 
no longer compliant with HUD's RV definition. This has created 
significant uncertainty for the owners of these models who may 
now be subject to local zoning and construction codes, may be 
barred from campgrounds or have difficulty in securing 
financing to buy or sell such models. This is a huge concern in 
a State like Montana where many communities in the State, 
including many in Indian Country rely on tourism which often 
includes travel by RV.
    Following the upcoming Manufactured Housing Consensus 
Committee meeting, can you commit to me that HUD will move 
expeditiously to consider its recommendations to update the RV 
definition and at a minimum, move to address the immediate 
uncertainty surrounding park model RVs?

A.3. This is an issue that is under the jurisdiction of HUD's 
Office of Office of Manufactured Housing Programs under the 
Office of Housing. I am unable to provide a substantive 
response to this question, as I do not have detailed knowledge 
or information on this matter. If confirmed, I will ask to be 
fully briefed on this matter by the Office of Housing, since, 
as you note, there is an impact on Indian Country. 
Additionally, I will work with your office and Secretary Castro 
to address this matter.

Q.4. Small Public Housing Relief: Ms. Ramirez, as the CEO of 
the San Antonio Housing Authority I'm sure you have a very 
clear understanding of the difficulties that public housing 
agencies face when it comes to regulations.
    Over the last several years, I've heard from many of my 
public housing agencies--the majority of which are very lean 
organizations managing fewer than 500 units--about the impact 
regulations designed for much larger agencies, which limit 
their ability to carry out their core mission of helping 
families.
    This is one of the reasons that Senator Johanns and I 
introduced legislation to address the disproportionate 
regulatory burdens faced by small public housing agencies and 
would provide them with greater flexibility. I will continue to 
push this legislation, but many of its provisions are things 
that HUD has the flexibility to implement on its own.
    What are your ideas about how to provide small public 
housing agencies more flexibility by tailoring regulations to 
allow them to spend less time on paperwork and more time 
focusing on their core mission?

A.4. As the CEO of a housing authority, I believe it is 
important to balance the need for monitoring and accountability 
with the need for limiting the burden on public housing 
authorities, particularly in a tight fiscal environment. 
Striking the right balance will help to ensure decent and safe 
affordable housing for residents, while protecting taxpayers 
through effective and appropriate oversight.
    I understand that the Department already has reduced 
certain administrative burdens in the public housing and 
Section 8 programs. Thanks to Congress, the Department has 
already reduced burden in the public housing and Section 8 
programs through notice issued on May 19, 2014, and June 25, 
2014. These notices were issued in accordance with streamlining 
authority provided to HUD by the Congress in the FY2014 
Appropriations Act. I further understand that the Department is 
continuing to explore additional options for reducing 
administrative burdens on small housing authorities and, if 
confirmed, I look forward to being briefed and working with 
you, other Members of the Senate Banking Committee, and public 
housing authorities on this effort.

Q.5. Administrative Fees: I continue to hear concerns about a 
lack of funds to administer Housing Choice vouchers, which is 
slowing down the issuance of new vouchers, limiting access, and 
increasing wait times. In Montana, many of our agencies are 
looking at a variety of ways to cover these administrative 
costs, but many of them continue to come up short and some have 
even had to go so far as to return VASH vouchers because they 
don't have the funds to administer them.
    Can you share with me any thoughts you have on ways that 
HUD could provide more flexibility to housing agencies and 
would you support allowing agencies to use some of their 
Housing Assistance Payment funds to cover these costs?

A.5. The Housing Choice Voucher (HCV) Program is a critically 
important housing assistance program serving approximately 2.2 
million extremely-low and very-low income families, and 
enabling households to rent in the community of their choice. I 
have had extensive experience managing and leading the HCV 
program at the local level, both in Los Angeles and San 
Antonio. I also know that to effectively deliver vouchers to 
eligible families, adequate Administrative Fee funding is 
necessary. The Administrative Fee supports the direct costs of 
professional staff responsible for determining eligibility, 
issuing vouchers, inspecting units, and maintaining program 
integrity. If confirmed, I look forward to relying on my 
extensive managerial and leaderships skills to strengthen the 
HCV Program.
    I understand that the proposed FY2015 budget includes an 
increase to the Administrative Fee. Additionally, HUD is 
conducting an Administrative Fee study to gather accurate 
information on the costs associated with administering the HCV 
program, and to use this information to develop a new fee 
allocation formula. If confirmed, I look forward to working 
with the Department and utilizing the study to address the HCV 
Administrative Fee needs of housing authorities.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR VITTER
               FROM LOURDES MARIA CASTRO RAMIREZ

Q.1. In 2009, HUD's Office of Inspector General (OIG) found 
that HUD did not obtain the best value through one of its 
contracting programs (PBCA-ACC contracts) and was wasting at 
least $7.6 million per year as a result. The OIG suggested that 
HUD perform an analysis to determine the most cost-effective 
method for implementing the program. In response to the OIG, 
HUD stated that its plan to address these failings included:

  <bullet>  obtaining ``market driven'' savings through 
        competition;

  <bullet>  increasing the number of applicants that bid for 
        the contracts; and

  <bullet>  having applicants be ``operational in various 
        geographical service areas'' to obtain ``cost 
        efficiencies with economies of scale.''

    Do you agree with HUD's position in 2009 that these basic 
principles lead to the most cost-effective funding awards?

A.1. I am unable to provide a substantive response to this 
question, as I do not have detailed knowledge or information on 
this matter. In addition, as far I am aware, the Office of 
Public and Indian Housing does not use a PBCA model.

Q.2. Do you agree that fair and open competition is the best 
way to ensure that HUD receives the best value and the taxpayer 
receives the greatest benefit for the costs incurred, for 
programs both within and outside the Office of Public and 
Indian Housing?

A.2. If confirmed, I commit to working closely with HUD's 
Contracting Officer to ensure that the procurement of goods and 
services by the Office of Public and Indian Housing complies 
with laws governing procurement and competition in contracting. 
I believe that the expenditure of public funds in the 
procurement process requires the highest degree of public trust 
and standard of conduct.

Q.3. If a fair and open competition is the best way to ensure 
that HUD receives the best value and the taxpayers receive the 
greatest benefit, why has HUD neglected to follow the same 
basic competitive contracting rules as other Federal agencies, 
for instance with Performance-Based Contract Administration?

A.3. I am unable to provide a substantive response to this 
question, as I do not have detailed knowledge or information on 
this matter. As noted in my response to the first question, as 
far as I am aware, the Office of Public and Indian Housing does 
not use a PBCA model. However, if confirmed, I am committed to 
complying with all contracting rules governing HUD and the 
Office of Public and Indian Housing.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
               FROM LOURDES MARIA CASTRO RAMIREZ

Q.1. In October, Senators Ayotte, Feinstein, Shaheen, and I 
wrote Secretary Castro to express concerns with the Department 
of Housing and Urban Development's proposed renewal process for 
Moving-to-Work (MTW). Given your experience as the President 
and CEO of a MTW Agency, I wanted to give you the opportunity 
to weigh in on some of the issues raised in that letter.
    Given how far HUD's current proposal is from what was 
offered to MTW agencies in March 2014, what is your view of 
HUD's aggressive timeframe for a final renewal agreement by 
December?

A.1. I understand that the Department has been collaboratively 
working with the 39 current MTW agencies to discuss the terms 
and conditions of extending their participation in the MTW 
Program through 2028, an additional 10 years beyond the current 
term that ends in 2018. This will better situate these MTW 
agencies to address long-term needs and to continue delivering 
critical housing and support services in their local 
jurisdictions. Finally, while I am aware that an end of the 
year goal has been established, I am confident that the 
Department will work to meet the needs of both the agencies and 
the Department, and if confirmed, I pledge to work toward this 
end.

Q.2. HUD has proposed that extension agreements become 
effective upon execution instead of becoming effective on 
expiration of the current agreements in 2018. Again, what is 
your view of such an aggressive timeframe? Does it allow for a 
smooth transition for MTW agencies and the communities they 
serve?

A.2. As I stated earlier, it is my understanding that both HUD 
and the MTW agencies established the goal of finalizing 
mutually agreeable terms for new contracts by the end of the 
calendar year. Many of us have long-term real estate and 
program planning efforts that require funding predictability. 
However, based on San Antonio Housing Authority's experience 
participating in contract extension discussions, all parties 
understand how critical it is that agreement be reached 
regarding program and funding flexibilities to continue local 
innovative work, while adding reporting and evaluation elements 
necessary to showcase that work. I should note that since being 
nominated by the President, I have delegated responsibility for 
participation in discussions with HUD regarding an extension of 
existing contracts as well as for participation with public 
housing trade associations.

Q.3. As I understand it, the proposed extension includes a 
provision that would cut the public housing component for 11 
MTW agencies in 2019. How will you ensure that these agencies 
can maintain their successful programs following this potential 
funding cut?

A.3. I do not have detailed information about the funding 
arrangements for those 11 agencies nor do I have information 
that HUD has proposed provisions regarding any cuts to the 
public housing component. However, if confirmed, I look forward 
to being fully briefed on the proposed provisions.

Q.4. In your written testimony, I was pleased to see concrete 
examples of SAHA using the flexibility provided by MTW to 
pursue innovative, community-wide economic development. As 
Assistant Secretary, will you work closely with MTW agencies to 
craft a renewal agreement that ensures them the flexibility to 
address their communities' unique challenges?

A.4. As the President and CEO of the San Antonio Housing 
Authority, I know how impactful an MTW designation can be in 
transforming the way public housing authorities deliver 
affordable housing resources in their communities. If 
confirmed, I will work closely with the Department and MTW 
agencies to develop a renewal agreement that supports the 
progress that MTW agencies and their partners have made in 
their local communities, while ensuring that monitoring and 
evaluation of the program remains a priority.

Q.5. Legislative proposals to expand MTW have been introduced 
or debated in both the House and Senate--for instance the 
Affordable Housing and Self-Sufficiency Improvement Act of 2012 
in the House and Moving to Work Charter Program Act of 2013 in 
the Senate. Would you support expansion of MTW as Assistant 
Secretary for Public and Indian Housing? If so, are there any 
key reforms or considerations Congress should pursue in 
expanding MTW?

A.5. Under my leadership and in partnership with local 
stakeholders, the San Antonio Housing Authority (SAHA) has 
developed a thoughtful and effective MTW program that is 
achieving greater cost effectiveness in Federal expenditures; 
providing incentives that promote self-sufficiency; and 
increasing housing choices for low-income families in San 
Antonio.
    SAHA has implemented several cost efficiency measures that 
not only streamline fundamental business processes but also 
provide better customer service to our residents. For example, 
the implementation of biennial reexaminations for elderly and 
disabled participant households resulted in a 30 percent 
reduction in the operational costs related to recertifications.
    Funding and programming for resident development and family 
self-sufficiency initiatives continues to grow and attain 
strong people outcomes. Today, there are more than 1,900 adults 
actively engaged in self-sufficiency activities, and 40 percent 
of them are employed.
    Investments in activities geared toward promoting resident 
development through education have included providing free Wi-
Fi access at 40 public housing properties; establishing 
children's libraries at 12 family housing sites; and 
coordinating the Education Summit, where we recognized children 
and youth for academic achievement and awarded college 
scholarships.
    Finally, SAHA adopted an Affordable Housing Preservation 
and Expansion Policy that established the principles, goals, 
priorities, and strategies to preserve and expand the supply of 
affordable housing. In the last 5 years, SAHA expanded the 
supply of affordable housing by securing $187 million in 
financing, through public-private partnerships, to build almost 
1,500 new housing units.
    If confirmed, I look forward to engaging with you, other 
Members of the Senate Banking Committee and housing partners to 
explore the best path forward with respect to existing MTW 
agencies and those PHAs seeking to become MTW agencies. I also 
look forward to increasing awareness of the positive impact 
that the MTW program is making in delivering critical housing 
resources, promoting self-sufficiency, reducing administrative 
costs, and implementing appropriate monitoring and evaluation 
protocols.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                    FROM THERESE W. McMILLAN

Q.1. Back at our January Banking Committee Hearing on MAP-21 
progress, I asked then-Administrator Rogoff for assurances that 
the FTA would not impose regulations that are unduly burdensome 
to small transit systems, which he gave.
    May I ask again for your assurances that you will continue 
on this same issue if you are confirmed as the new FTA 
Administrator?

A.1. If confirmed, I can commit to the same assurances you 
received from my predecessor for consideration of small transit 
systems.
    FTA is taking a comprehensive approach to its MAP-21 
rulemaking requirements with thoughtful consideration to the 
effect on smaller operators.
    With regard to FTA's safety authority, we believe that 
using a safety management system (SMS) approach, where we 
tailor the safety regime to the unique circumstances of the 
individual transit provider, is the best approach. SMS will 
allow each transit agency to focus on its specific safety risks 
and threats--without adding unnecessary burden.
    With regard to Transit Asset Management (TAM), FTA believes 
that we can apply the new requirement that all agencies have an 
asset management plan with a scalable, flexible approach. It 
should be noted that not all transit agencies will be required 
to report asset information to the National Transit Database 
(NTD), including recipients who are solely funded by Sec. 5310 
funding. Further, we are sensitive to the resources of agencies 
who will be asked to report their asset inventory data.
    We also recognize the importance of reaching out to the 
public. FTA published an Advanced Notice of Proposed Rulemaking 
(ANPRM) on safety and TAM in October 2013 and conducted several 
webinars seeking public input on how best to implement the new 
authority. We received more than 2,500 pages of comments, many 
from small and rural operators, and FTA is now in the process 
of reviewing and analyzing them before preparing for the next 
steps in the rulemaking process.
    Finally, FTA plans to be an active partner with transit 
providers, providing guidance, training, and technical support 
as we work to implement these programs. We will be there to 
assist with understanding requirements and determining the 
proper level of resource commitment. All this can and will be 
scaled appropriately to the different sectors of public 
transportation.

Q.2. The Banking Committee has a strong record of balancing the 
needs of rural and urban States and I look forward to 
continuing that principle as we move toward reauthorization.
    Do you agree that rural transit service is important and 
should grow proportionately with transit?

A.2. I agree that rural transit service is important and should 
grow proportionally with transit. Rural transit provides a 
lifeline for those who are unable to use a personal vehicle to 
access education, employment, health care, and other vital 
services. If confirmed, I look forward to working with you to 
address the needs of rural transit systems and riders across 
America.
                                ------                                


           RESPONSES TO WRITTEN QUESTIONS OF SENATOR
               MENENDEZ FROM THERESE W. McMILLAN

Q.1. As you know, the recovery from Hurricane Sandy is ongoing, 
even as we just reached the 2-year anniversary of the storm. I 
appreciate the investment FTA recently made in resiliency 
projects for New Jersey Transit and the Port Authority of New 
York and New Jersey, but as you know, more work remains to 
done. It's vital that we invest the remaining FTA emergency 
relief funding in the places that were hardest hit, to ensure a 
full recovery and prevent more catastrophic damage from future 
storms.
    Can I have your commitment that the remaining Sandy transit 
emergency relief funds will be targeted towards the hardest hit 
areas?

A.1. While I agree there is much work left to be done to fully 
recover and rebuild the areas hit hardest by Hurricane Sandy, I 
am pleased to report that 92 percent of the $10.4 billion 
provided to FTA has now been allocated to the transit agencies. 
This includes the selection of 40 projects totaling $3.59 
billion for the resiliency needs of affected agencies announced 
in September 2014.
    FTA is currently holding the remaining 8 percent of the 
funding, approximately $817 million, in reserve for future 
recovery needs arising from latent storm damage, higher 
contract bids than anticipated, and a variety of other possible 
circumstances. If confirmed, I intend to work with you and 
others on this Committee to distribute these funds to the areas 
hardest hit by the storm.

Q.2. One of my top priorities is providing Federal support for 
the Gateway project, which includes new tunnels under the 
Hudson River and the replacement of New Jersey's Portal Bridge, 
which are both over 100 years old. If either the bridge or the 
tunnels fail, you'll see a complete severing of the Northeast 
Corridor and a crippling bottleneck in a region that produces 
20 percent of the Nation's GDP. Gateway is truly the definition 
of a project of national significance, and we can't wait until 
one of these pieces of critical infrastructure fails to find a 
solution.
    Can I have your commitment to working within DOT to help us 
with the advancement of this project through any funding, 
financing, or technical assistance resources at your disposal?

A.2. If confirmed, I commit to work within DOT to address the 
challenges that aging infrastructure presents to the Northeast 
Corridor.
    The tunnel infrastructure under the Hudson River that 
jointly serves Amtrak and New Jersey Transit is a serious 
concern for the region's continued economic success. I fully 
understand the importance of this tunnel to the region's 
economy. Indeed, in recognition of the importance of this 
project, the Department allocated $185 million from FTA's 
Hurricane Sandy funding to the Federal Railroad Administration 
for use in the project. I look forward to working with you, the 
State of New Jersey, and Amtrak to identify additional 
resources in order to move this project forward.
    The Administration's GROW AMERICA Act proposal would 
provide Amtrak with predictable, dedicated funding to repair 
and replace its aging infrastructure, like these tunnel 
arteries. The proposal also boosts funding for FTA's New Starts 
program to $2.5 billion per year, and transit agencies like New 
Jersey Transit would be eligible to apply.
    If confirmed, I look forward to working with you and this 
Committee to identify DOT funding sources available for this 
critical project.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                    FROM THERESE W. McMILLAN

Q.1. Rural Transit: Thank you for joining us today, Ms. 
McMillian. As you know, Montana is a very large State and often 
folks need to travel long distances to access basic services. 
In many cases, these trips to see a doctor, to see family 
member or to go to work are made possible by public transit. 
And in our larger towns, ridership is continues to increase as 
our transit systems continue to grow.
    Would you agree, Ms. McMillian, that transit is important 
and should be supported in rural and small communities, not 
just in big metro areas?

A.1. I agree that rural transit service is important and should 
grow proportionally with transit. Rural transit provides a 
lifeline for those who are unable to use a personal vehicle to 
access education, employment, health care, and other vital 
services. If confirmed, I look forward to working with you to 
address the needs of rural transit systems and riders across 
America.

Q.2. When FTA imposes new regulatory or program requirements, 
compliance can be particularly difficult for small and rural 
transit providers. Unlike large transit agencies, the costs of 
compliance have to be spread only over a small staff and 
ridership.
    As you make decisions to impose new requirements, how will 
you work to consider the implications for small and rural 
providers?

A.2. If confirmed, I intend to ensure that small and rural 
providers are not unnecessarily or disproportionately burdened 
by Federal requirements.
    FTA is taking a comprehensive approach to its MAP-21 
rulemaking requirements with thoughtful consideration to the 
effect on smaller operators.
    With regard to FTA's safety authority, we believe that 
using a safety management system (SMS) approach, where we 
tailor the safety regime to the unique circumstances of the 
individual transit provider, is the best approach. SMS will 
allow each transit agency to focus on its specific safety risks 
and threats--without adding unnecessary burden.
    With regard to Transit Asset Management (TAM), FTA believes 
that we can apply the new requirement that all agencies have an 
asset management plan with a scalable, flexible approach. It 
should be noted that not all transit agencies will be required 
to report asset information to the National Transit Database 
(NTD), including recipients who are solely funded by Sec. 5310 
funding. Further, we are sensitive to the resources of agencies 
who will be asked to report their asset inventory data.
    We also recognize the importance of reaching out to the 
public. FTA published an Advanced Notice of Proposed Rulemaking 
(ANPRM) on safety and TAM in October 2013 and conducted several 
webinars seeking public input on how best to implement the new 
authority. We received more than 2,500 pages of comments, many 
from small and rural operators, and FTA is now in the process 
of reviewing and analyzing them before preparing for the next 
steps in the rulemaking process.
    Finally, FTA plans to be an active partner with transit 
providers, providing guidance, training, and technical support 
as we work to implement these programs. We will be there to 
assist with understanding requirements and determining the 
proper level of resource commitment. All this can and will be 
scaled appropriately to the different sectors of public 
transportation.

Q.3. Tribal Transit: Ms. McMillian, the Cherokee Nation of 
Oklahoma has contacted the Senate Committee on Indian Affairs 
regarding the distribution of the Nation's transit money. 
According to the Nation, the FTA has withheld distributing 
approximately $330,000 Tier 1 and Tier 2 funding that is 
undeniably due to the Nation according to the MAP-21 formula.
    I understand that this is because there is some dispute 
regarding the distribution of Tier 3 funds between Nation and 
United Keetoowah Band. It seems very harmful to hold up funds 
clearly owed to a Tribe under the law because of an unrelated 
dispute.
    What assurance can you provide the Committee that this 
funding will be distributed to the Nation in a timely manner?

A.3. I am pleased to report that FTA has successfully mediated 
an agreement between the Cherokee Nation of Oklahoma and the 
United Keetoowah Band of Cherokee for a sub allocation for Tier 
3 funds for FY13 and 14. This agreement was necessary prior to 
processing their grant applications; as a result both tribes 
may now apply for Tier 1, 2, and 3 funding.
    FTA expects to receive and process grant applications from 
both tribes in the near future. If confirmed, I would be happy 
to work with you and other Members of the Committee on issues 
pertaining to the Tribal Transit program.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                    FROM THERESE W. McMILLAN

Q.1. Study after study demonstrates new rail and subway 
expansions are one of the strongest and most effective ways to 
boost the economy and stimulate private investment, but the up-
front costs have caused Congress to hold back on funding.
    Acting Administrator McMillan, do you agree with these 
recent studies that capital investment in rail transit can 
stimulate economic growth and do you believe that New Starts 
projects such as the Green Line project in Massachusetts are 
one of the strongest and most effective ways for States to 
boost the economy and stimulate private investment?

A.1. I agree that investments in transit stimulate economic 
growth.
    There are examples of economic growth all over the country 
as a result of the construction of new or expanded transit 
projects. Employers, health service providers and others are 
choosing to locate near transit. Private developers are 
building residential areas near transit stops. Transit can 
serve as a revitalizing influence in neighborhoods across the 
United States.
    There are two excellent examples of economic development to 
note in Massachusetts, and we expect more to follow when the 
Green Line project gets underway in Cambridge in the near 
future. Assembly Square Station in Somerville is the anchor of 
the $1.5 billion Assembly Row mixed-use development area, which 
has revitalized the former Ford Motor Company Plant into a 
vibrant place to work, shop and live.
    In Worcester, a new regional transit hub, connected to the 
redeveloped Union Station, has played a key role in attracting 
private investors to CitySquare, a $563 million public-private 
commercial real estate project that will create a vibrant, 
pedestrian-friendly center in downtown Worcester.
    There is great news coming from other parts of the country 
as well. In Orlando, Florida, the SunRail commuter rail line 
has connected millions of residents of Central Florida with 
employment and education in downtown Orlando, and has spurred 
$1.6 billion in public and private investments near SunRail 
stations. Notably, a $250 million public-private partnership to 
create a Health Village at Florida Hospital has resulted in 
quality health care and thousands of jobs becoming easily 
accessible through transit.
    And finally, in Denver, Colorado, the transformation of 
historic Union Station into a multimodal transportation hub has 
attracted nearly a billion dollars in related private 
investment, anchoring two new commuter rail lines that will 
better connect the region's 3 million residents to downtown 
Denver.
    If confirmed, I look forward to working with you to advance 
transit projects that generate economic development and 
employment while improving quality of life in their 
communities.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR HEITKAMP
                    FROM THERESE W. McMILLAN

Q.1. In North Dakota, our transit providers do not have big 
subway systems or fleets of several hundred buses like the 
providers in big urban areas. However, transit is important to 
rural areas as well, especially to some of our more vulnerable 
populations. If confirmed, how will you ensure that rural and 
small communities are supported?

A.1. Thanks to the work of this Committee, MAP-21 increased 
funding for both the rural and tribal transit formula programs, 
giving FTA the ability to partner with more agencies to bring 
transit service to rural and tribal areas needing relief.
    FTA has several critical support activities under way 
through it technical assistance resources, such as the National 
Rural Transportation Program (NRTAP) and the National Center on 
Mobility Management (NCMM) that have been tailored to the 
issues facing rural transit providers. FTA also published the 
final program guidance for the Rural Area Formula grant program 
on October 24, 2014, an important resource for service 
providers. This incorporates changes made to the section 5311 
program and crosscutting requirements resulting from the 
passage of MAP-21.
    If confirmed, I look forward to working with this Committee 
and our rural transit providers to improve access to much 
needed transit service.

Q.2. Small transit providers can face particular challenges 
when new regulations are imposed as the cost of regulation must 
be absorbed by very small staffs and small ridership. When 
developing new requirements, do you intend to ensure that small 
and rural providers are not unnecessarily or disproportionately 
burdened?

A.2. If confirmed, I intend to ensure that small and rural 
providers are not unnecessarily or disproportionately burdened 
by Federal requirements.
    FTA is taking a comprehensive approach to its MAP-21 
rulemaking requirements with thoughtful consideration to the 
effect on smaller operators.
    With regard to FTA's safety authority, we believe that 
using a safety management system (SMS) approach, where we 
tailor the safety regime to the unique circumstances of the 
individual transit provider, is the best approach. SMS will 
allow each transit agency to focus on their specific safety 
risks and threats--without adding unnecessary burden.
    With regard to Transit Asset Management (TAM), FTA believes 
that we can apply the new requirement that all agencies have an 
asset management plan with a scalable, flexible approach. It 
should be noted that not all transit agencies will be required 
to report asset information to the National Transit Database 
(NTD), including recipients who are solely funded by Sec. 5310 
funding. Further, we are sensitive to the resources of agencies 
who will be asked to report their asset inventory data.
    We also recognize the importance of reaching out to the 
public. FTA published an Advanced Notice of Proposed Rulemaking 
(ANPRM) on safety and TAM in October 2013 and conducted several 
webinars seeking public input on how best to implement the new 
authority. We received more than 2,500 pages of comments, many 
from small and rural operators, and FTA is now in the process 
of reviewing and analyzing them before preparing for the next 
steps in the rulemaking process.
    Finally, FTA plans to be an active partner with transit 
providers, providing guidance, training, and technical support 
as we work to implement these programs. We will be there to 
assist with understanding requirements and determining the 
proper level of resource commitment. All this can and will be 
scaled appropriately to the different sectors of public 
transportation.
              Additional Material Supplied for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
